                              Office of Inspector General
                             Corporation for National and
                                      Community Service




AUDIT OF FINANCIAL MANAGEMENT SYSTEMS OF
AMERICAN RECOVERY AND REINVESTMENT ACT
                 GRANTEES

               OIG REPORT 11-10




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                       (202) 606-9390


   This report was issued to Corporation management on April 15, 2011. Under
   the laws and regulations governing audit follow-up, the Corporation is to make
   final management decisions on the report’s findings and recommendations no
   later than October 17, 2011 and complete its corrective actions by April 16,
   2012. Consequently, the reported findings do not necessarily represent the
   final resolution of the issues presented.
                                          April 15, 2011

TO:            Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General’s (OIG) Report 11-10: Audit of Financial Management
               Systems of American Recovery and Reinvestment Act (ARRA) Grantees

Attached is the final report on the OIG’s Audit of Financial Management Systems of American
Recovery and Reinvestment Act Grantees. This audit was performed by OIG staff in
accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by October 17, 2011. Notice of final action is due by April 16, 2012.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov; or Thomas Chin, Audit Manager, at (202) 606-9362 or
t.chin@cncsoig.gov.


Attachment

cc:   Robert Velasco II, Chief Operating Officer & Acting Chief of Program Operations
      William Anderson, Chief Financial Officer
      John Gomperts, Director of AmeriCorps
      Wilsie Minor, Acting General Counsel
      Claire Moreno, Audit Liaison, Office of Grants Management
      Jack Goldberg, Audit Resolution Specialist, Office of Grants Management




                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps  AmeriCorps  Learn and Serve America
                                                            CONTENTS

Section                                                                                                                            Page

Executive Summary ........................................................................................................          1

Results of Audit ...............................................................................................................    2

Objectives, Scope, and Methodology ..............................................................................                   8

Background ..................................................................................................................... 10

Exit Conference ............................................................................................................... 10

Corporation Response .................................................................................................... 10

OIG Comment ................................................................................................................. 10


Appendix

A: Corporation’s Response to Draft Report




                                                    TABLE OF ACRONYMS


                  ARRA                    American Recovery and Reinvestment Act of 2009
                   CFR                              Code of Federal Regulations
                   FFR                                Federal Financial Report
                  GAAP                       Generally Accepted Accounting Principles
                   OIG                               Office of Inspector General
                  OMB                            Office of Management and Budget
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed individual audits of financial management systems of
Corporation grantees that received American Recovery and Reinvestment Act of 2009
(ARRA) funding. Our objective of the Audit of Financial Management Systems of ARRA
Grantees was to determine whether the ARRA grantees had adequate accounting
systems to properly account for these funds. Additionally, we assessed grantee
capability to comply with ARRA accountability requirements and to ensure: (1) recipients
of funds and uses of all funds were transparent; (2) the reporting of the public benefit of
ARRA funds was clear, accurate, and timely; (3) funds were used for authorized
purposes and internal controls were in place to mitigate fraud, waste, error, and abuse;
and (4) controls were in place to avoid unnecessary delays and cost overruns.

We performed site visits at 11 ARRA grantees. Of that total, we found that seven
grantees had financial management systems that were either inconsistent or were not in
compliance with applicable regulations. We also noted the following nine findings:

      Unallowable Member Living Allowance
      Unallocable Expenditures
      Timekeeping Deficiencies
      Timesheets Were Not Signed and/or Dated
      Incorrect Amounts Reported on Federal Financial Report
      Incorrect Parent Allocation Calculation
      Undocumented Methodology for Reporting Member Living Allowance
      Misclassification of Line-Item Expenses
      Accounting System Did Not Include Automated Budget Controls

As a result of reviewing a sample of grantees’ reported expenses, the following costs
were noted for 6 of 11 grantees:

               Reason                       Grant No.         Questioned Amounts

   Unallocable payroll expense            09RNHMD002                 $6,788
   Unallocable evaluation expense       09RCHCA0020010                1,400
   Unallowable living allowance         09RCHCA0020007                 445
   Unallowable living allowance         09RCHCA0020010                 680
   Total Questioned Amount                                           $9,313



               Reason                       Grant No.         Other Adjusted Amounts

   Unsupported living allowance        09RCHCA0020002                 ($394)
   Unsupported payroll expense         09RCHCO0020001                (69,242)
   Unallowable payroll expense         09RCHNY0020014                  (265)
   Total Other Adjusted Amount                                      ($69,901)




                                             1
                                  RESULTS OF AUDIT

Finding 1. Unallowable Member Living Allowance

For 2 of the 11 grantees, we noted questioned costs associated with member living
allowances. For one grantee, we identified a $445 discrepancy between the member’s
timesheet and the costs reported against the ARRA grant as living allowance expenses.
The member's timesheet documented no hours served, and therefore the member was
ineligible to receive the living allowance for the final pay period.

For another grantee, it was determined that a member was erroneously charged to the
ARRA grant after he had departed the AmeriCorps program. The member’s $680 living
allowance was still included in the total living allowance balance claimed in the
subsequent pay period. Both instances caused an overstatement of $1,125 in the
reporting of Federal funds against the ARRA grants.

AmeriCorps 2009 Grant Provisions, Section IV. F.1. Living Allowance Distribution,
states:

       A living allowance is not a wage. Grantees must not pay a living
       allowance on an hourly basis. Grantees should pay the living allowance in
       regular increments, such as weekly or bi-weekly, paying an increased
       increment only on the basis of increased living expenses such as food,
       housing, or transportation. Payments should not fluctuate based on the
       number of hours served in a particular time period, and must cease when
       a member concludes a term of service.

AmeriCorps 2009 Grant Provisions, Section IV.C.4. Timekeeping, states:

       The grantee is required to ensure that time and attendance recordkeeping
       is conducted by the individual who supervises the AmeriCorps member.
       This time and attendance record is used to document member eligibility
       for in-service and post-service benefits. Time and attendance records
       must be signed and dated both by the member and by an individual with
       oversight responsibilities for the member.

Recommendation 1

We recommend the Corporation:

   a) Verify the grantees have resolved the questioned costs and adjust the Federal
      costs accordingly to the state commissions; and

   b) Review the grantees’ policies and procedures related to review and reconciliation
      between its accounting records and Federal financial reports. This will ensure
      member living allowance payments are consistent with and adhere to the
      AmeriCorps grant provisions and the grant agreements with state commissions.




                                           2
Finding 2. Unallocable Expenditures

For 2 of the 11 grantees, we determined costs associated with their AmeriCorps State
and National Direct grants were improperly charged and reported to the ARRA grant.
One of the grantee’s costs was for member living allowances and the other was for
evaluation assessment expenditures. We further identified that living allowances
associated with ARRA grant were charged to the AmeriCorps National Direct grant
during the same period.

Both grantees indicated that the errors have been corrected in the subsequent reporting
period. For one of the grantees, the error was corrected during our fieldwork, allowing
the OIG auditors to review the corrected journal entry and supporting documentation.
For the other grantee, the questioned costs of $1,400 were addressed subsequent to our
fieldwork.

Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment A. Basic Considerations, Paragraph A.4. Allocable costs at
subsection (b) states:

       Any cost allocable to a particular award or other cost objective under
       these principles may not be shifted to other Federal awards to overcome
       funding deficiencies, or to avoid restrictions imposed by law or by the
       terms of the award.

Consequently, though the net effect of the error for the two grants is $0, it could
potentially cause an overstatement on the ARRA grant’s budget for evaluation
expenses.

Recommendation 2

We recommend the Corporation:

   a) Review the supporting documents and financial reports based on the grantees’
      corrected journal entries for both the ARRA grant and the AmeriCorps National
      Direct grant; and

   b) Review the two grantees’ policies and procedures related to the recording and
      review of its Federal award allocations. This will ensure program payments are
      consistent with the AmeriCorps grant provisions and the grant agreements with
      state commissions.


Finding 3. Timekeeping Deficiencies

   a. Employees were not using activity based timesheets

For 2 of the 11 grantees, we identified that employees’ timesheets did not segregate
employees’ time by project in accordance with OMB Circular A-122, Cost Principles for
Non-Profit Organizations. Without activity based timesheets, the potential exists for
labor costs to be incorrectly recorded, and not allocated to the appropriate grant.



                                             3
   b. Accounting System inaccurately reports budgeted amounts

For 1 of the 11 grantees, we determined that it reported employee wages based on
predetermined grant budgeted amounts rather than actual time worked. Without the
preparation of financial reports based on actual time worked on the program, the grantee
cannot adequately support its charges. Also, management oversight and budgeting of
grant labor costs could be weakened without an actual history of labor costs.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B.
Selected Items of Cost, Paragraph 8. Compensation for personal services, states:

   m. Support of salaries and wages.

       (1) Charges to awards for salaries and wages, whether treated as direct
       costs or indirect costs, will be based on documented payrolls approved by
       a responsible official(s) of the organization. The distribution of salaries
       and wages to awards must be supported by personnel activity reports, as
       prescribed in subparagraph (2), except when a substitute system has
       been approved in writing by the cognizant agency. (See subparagraph
       E.2 of Attachment A.)

       (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals)
       whose compensation is charged, in whole or in part, directly to awards.
       In addition, in order to support the allocation of indirect costs, such
       reports must also be maintained for other employees whose work
       involves two or more functions or activities if a distribution of their
       compensation between such functions or activities is needed in the
       determination of the organization's indirect cost rate(s) (e.g., an employee
       engaged part-time in indirect cost activities and part-time in a direct
       function). Reports maintained by non-profit organizations to satisfy these
       requirements must meet the following standards:

              (a) The reports must reflect an after-the-fact determination of the
              actual activity of each employee. Budget estimates (i.e.,
              estimates determined before the services are performed) do not
              qualify as support for charges to awards.

              (b) Each report must account for the total activity for which
              employees are compensated and which is required in fulfillment of
              their obligations to the organization.

Recommendation 3

We recommend that the Corporation:

   a) Ensure that the grantees utilize activity-based timesheets for all employees
      whose compensation and services are directly charged to the grant; and




                                            4
   b) Verify any newly implemented timekeeping procedures to ensure they document
      actual labor costs and after-the-fact time charged to AmeriCorps grants.


Finding 4. Timesheets Were Not Signed and/or Dated

For 4 of the 11 grantees, we determined two grantees had member timesheets that were
not signed or dated by either the member or program supervisors. We also noted that
two other grantees had member timesheets that were signed but not dated by the
members and/or program supervisors. AmeriCorps requirements do not directly address
specific timesheet procedures, which are the responsibility of the grantee or subgrantee.
It is, however, good business practice to sign and date documents. As a result,
accountability is maintained, and timesheets are consistent with member and
management intentions.

AmeriCorps 2009 Grant Provisions, Section IV C. 4. states:

       The grantee is required to ensure that time and attendance recordkeeping
       is conducted by the individual who supervises the AmeriCorps member.
       This time and attendance record is used to document member eligibility
       for in-service and post-service benefits. Time and attendance records
       must be signed and dated both by the member and by an individual with
       oversight responsibilities for the member.

Recommendation 4

We recommend that the Corporation ensure the grantees’ staff conduct and document
periodic reviews of member timesheets to ensure that required signatures and dates by
both members and supervisors are included.


Finding 5. Incorrect Amounts Reported on Federal Financial Report

For 3 of the 11 grantees, we determined three separate instances where discrepancies
were identified between the reported expenditures from the grantees’ Federal Financial
Report (FFR) and the supporting documentation and accounting records. For the three
grantees, the effects of these errors resulted in understated grant expenses of $265,
$69,242, and $284, respectively.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Paragraph A. Basic
Considerations, 2. Factors Affecting Allowability of Costs, states:

  To be allowable under an award, costs must meet the following general
  criteria:

   a. Be reasonable for the performance of the award and be allocable thereto
      under these principles.

   b. Conform to any limitations or exclusions set forth in these principles or in
      the award as to types or amount of cost items.



                                            5
   c. Be consistent with policies and procedures that apply uniformly to both
      federally financed and other activities of the organization.

   d. Be accorded consistent treatment.

   e. Be determined in accordance with generally accepted accounting
      principles (GAAP).

   f.   Not be included as a cost or used to meet cost sharing or matching
        requirements of any other federally financed program in either the current
        or a prior period.

   g. Be adequately documented.

Recommendation 5

We recommend the Corporation:

   a) Review the understated costs against the grant and verify they were corrected by
      the grantee; and

   b) Review the grantees’ procedures for requiring personnel to review and reconcile
      the FFRs and supporting documentation before they are submitted.


Finding 6. Incorrect Parent Allocation Calculation

For 1 of the 11 grantees, we identified that the indirect cost allocation from the parent
organization for three administrative employees charged to the ARRA grant award was
incorrectly calculated. The grantee identified the $6,788 error that was overbilled to the
grant. A correcting entry was prepared by the grantee, which we reviewed, noting the
calculation for the transactions to the employee contracts, check requests, and check
stubs were adequate and proper.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. Basic
Considerations, Paragraph 2. Factors Affecting Allowability of Costs, states:

        Factors affecting allowability of costs, states an award cost must be
        adequately documented in order to be allowable.

Recommendation 6

We recommend the Corporation:

   a) Review the grantee’s revised costs for both the AmeriCorps National Direct and
      ARRA grant on the subsequent FFR submissions; and

   b) Ensure the grantee strengthens its controls for verifying and preparing parent
      allocations to ensure costs are being equitably charged.




                                             6
Finding 7. Undocumented Methodology for Reporting Member Living Allowance

For 1 of the 11 grantees, we determined that its’ accounting policies do not address
processes for recording member living allowances. The detailed calculation and
reconciliation of living allowance is complicated, and it is necessary to understand and
document the methodology for the calculation, which is a material Federal expenditure to
the ARRA grant. The grantee recently developed a fiscal tracking system that will
provide the organization with more accurate accounting for member living allowances.

45 Code of Federal Regulations (C.F.R.) § 2543.21, Standards for financial
management systems, subsections (b)(2) and (b)(3) state:

       Recipients’ financial management systems shall provide for the following:
   (1) Records that identify adequately the source and application of funds for
       federally-sponsored activities. These records shall contain information
       pertaining to Federal awards, authorizations, obligations, unobligated
       balances, assets, outlays, income and interest.
   (2) Effective control over and accountability for all funds, property and other
       assets. Recipients shall adequately safeguard all such assets and assure
       they are used solely for authorized purposes.

Recommendation 7

We recommend that the Corporation verify the grantee’s new tracking system to ensure
that the grantee thoroughly documents its methodology for recording member living
allowance expenses.


Finding 8. Misclassification of Line-Item Expenses

For 1 of the 11 grantees, we identified two instances where an expense was incorrectly
recorded as another line item expense. The first instance was $83 of employee training
and travel expenses that were erroneously claimed against the ARRA grant as member
training costs. This caused an overstatement of $83 in member training Federal and
match expenses. The second instance was $1,390 for employee travel expenses that
were erroneously claimed against the ARRA grant as employee training expenses. This
caused an overstatement of $1,390 of employee training charged to Federal and match
expenses.

AmeriCorps 2009 Grant Provisions, Section V.B. Financial Management Standards
states:

       1. General. The Grantee must maintain financial management systems
       that include standard accounting practices, sufficient internal controls, a
       clear audit trail and written cost allocation procedures, as necessary.
       Financial management systems must be capable of distinguishing
       expenditures attributable to this grant from expenditures not attributable
       to this grant. The systems must be able to identify costs by programmatic
       year and by budget category and to differentiate between direct and
       indirect costs or administrative costs.


                                            7
Although the net effect of the error within the grantee’s accounting system is $0, it could
potentially cause an overstatement on the ARRA grant’s budget for employee and
member travel and training costs.

Recommendation 8

We recommend the Corporation ensure the grantee improves its budget-line item
classification accounting practices and strengthens its budget monitoring procedures.


Finding 9. Accounting System Did Not Include Automated Budget Controls

For 1 of the 11 grantees, we determined that its’ accounting system general ledger
operating system does not include an automated control utility to prevent obligations
from being incurred in excess of total funds available. Instead, manual budget controls
are used to monitor the grantee’s financial position. However, the accounting system
has a budget module, which the grantee has not yet utilized. The grantee indicated that
it intends to activate the budget module in the next fiscal year and update its policies and
procedures accordingly. Until that occurs, excess expenditures may not be promptly
detected if the grantee experiences unanticipated staffing changes, absence of key
personnel due to illness or travel obligations, or other unforeseen events.

Recommendation 9

We recommend that the Corporation:

   a) Ensure the grantee activates and implements the budget module as soon as
      possible to enhance controls over its budget monitoring process; and

   b) Review grantee’s policies and procedures and ensure they are updated to
      incorporate the new procedures related to the budget module.


                         OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted our audit in accordance with generally accepted government audit
standards. Those standards required that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our audit objective was to determine whether the ARRA grantees have adequate
accounting systems to properly account for these funds. Additionally, it was to assess
recipient capability to comply with ARRA accountability requirements and to:




                                             8
        1. Ensure that recipients of funds and uses of all funds are transparent;
        2. Ensure the reporting of the public benefit of ARRA funds is clear, accurate, and
        timely;
        3. Ensure funds are used for authorized purposes and internal controls are in place to
        mitigate fraud, waste, error, and abuse; and
        4. Ensure controls are in place to avoid unnecessary delays and cost overruns.

        The OIG judgmentally selected a sample of grantees according to the following criteria:

                ARRA grant recipients of $500,000 or more in Federal funds,
                ARRA recipients who had an existing State or National Direct grant (VISTA
                 ARRA recipients were not required to be existing grant recipients), and
                ARRA grant recipients which were not the subjects of a recent, prior audit or
                 review by the OIG.

        Of the initial 21 grantees selected, the OIG cancelled ten of the grantee reviews due to
        resource constraints and other assignment priorities. The 11 grantees that we audited
        are listed below:


                 GRANTEE                              LOCATION                GRANT NO.      AWARDED        FFR
                                                                                             AMOUNT        PERIOD
        BOSTON PLAN FOR EXCELLENCE              BOSTON, MASSACHUSETTS       09RCHMA0020002   $540,000     7/1/2009 TO
                                                                                                          12/31/2009
      CALIFORNIA CONSERVATION CORPS             SACRAMENTO, CALIFORNIA      09RCHCA0020002   $1,552,000   7/1/2009 TO
                                                                                                           6/30/2010
     GOODWILL INDUSTRIES INTERNATIONAL           ROCKVILLE, MARYLAND         09RNHMD001      $693,481     7/1/2009 TO
                                                                                                           9/30/2009
KEYSTONE SMILES COMMUNITY LEARNING CENTER      HARRISBURG, PENNSYLVANIA     09RCHPA0020002   $789,745     7/1/2009 TO
                                                                                                           3/31/2010
   MILE HIGH YOUTH CORPS (YEAR ONE, INC)          DENVER, COLORADO          09RCHCO0020001   $832,831     6/1/2009 TO
                                                                                                           9/30/2009
      NAPA COUNTY OFFICE OF EDUCATION              NAPA, CALIFORNIA         09RFHCA0010001   $1,657,168   7/1/2009 TO
                                                                                                           6/30/2010
NOTRE DAME MISSION VOLUNTEERS PROGRAM, INC.      BALTIMORE, MARYLAND         09RNHMD002      $550,224     9/1/2009 TO
                                                                                                          03/31/2010
    REDWOOD COMMUNITY ACTION AGENCY               EUREKA, CALIFORNIA        09RCHCA0020007   $784,655     3/1/2010 TO
                                                                                                          06/30/2010
  SLIPPERY ROCK UNIVERSITY OF PENNSYLVANIA    SLIPPERY ROCK, PENNSYLVANIA   09RCHPA0020003   $549,534     1/1/2010 TO
                                                                                                          03/31/2010
      THE AFTER-SCHOOL CORPORATION               NEW YORK, NEW YORK         09RCHNY0020014   $512,616     7/1/2009 TO
                                                                                                           3/31/2010
       WEINGART CENTER ASSOCIATION              LOS ANGELES, CALIFORNIA     09RCHCA0020010   $800,296     3/1/2010 TO
                                                                                                          06/30/2010
                                                                             TOTAL AWARDED   $9,262,550




        We conducted site visits for the above 11 grantees and held interviews with the
        grantees’ personnel. We obtained and reviewed correspondence, memoranda, and
        various documents and records prepared by grantees. We also reviewed grantees’
        accounting systems, policies, and procedures. We reviewed the grantees’ accounting
        systems and FFRs for the period of July 1, 2009, through June 30, 2010. We conducted
        our audits between September 2009 and December 2010.


                                                          9
                                     BACKGROUND

The Corporation’s appropriation for the ARRA was approximately $201 million, of which
approximately $154 million was granted to place approximately 13,000 additional
AmeriCorps*State and National and AmeriCorps*VISTA members to meet the needs of
vulnerable populations and communities during the economic recession. ARRA funding
was also used to provide current grantees with relief from requirements to provide
matching funds. The Corporation also received ARRA funding to improve its information
technology systems.

ARRA AmeriCorps funding was awarded to existing national, regional, and local
grantees with proven track records that could demonstrate the capacity to efficiently and
effectively draw upon ARRA resources to assist communities in need.

To ensure transparency and promote competition to the greatest extent practical, the
Corporation, as part of its Fiscal Year 2009 grant-making process, announced the
availability of one-time funding for “Recovery Grants” to existing grantees to augment
their current programs. The notice of funding included specific instructions and guidance
for the match-waiver requirements, along with instructions that ARRA funding was
designed to increase the number of serving members.

                                    EXIT CONFERENCE

We discussed the contents of this draft report with Corporation representatives at an exit
conference on February 25, 2011. The Corporation’s response to the draft report has
been included in this final report as Appendix A.

                                CORPORATION RESPONSE

The Corporation stated the Office of Grants Management will follow up with each
individual grantee audit results to determine the corrective action needed after the OIG’s
final report has been issued.

                                     OIG COMMENT

Subsequent to the individual grantee audits, the OIG provided each grantee’s results
letter to the Office of Grants Management. Although the ARRA grants have ended, a
majority of the programs covered in our audit report are current Corporation grant
recipients. The OIG will work with the Corporation to provide further information, as
needed, during audit resolution process.


/s/

Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                            10
             Appendix A

Corporation’s Response to Draft Report
                                 NATIONAL&!
                                 COMMUNITY
                                 SERVICE ...........



To:

From:                                                         anagement

Date:

SUbj :          Response to OIG Draft Report on the Audit of Financial Management
                Systems of American Recovery and Reinvestment Act Grantees


Thank you for the opportunity to comment on the OIG draft report of the financial
management systems of Recovery Act grantees. We will need the working papers in
order to identify the programs associated with each recommendation in your report.
Once the report is issued as final and OIG can provide those working papers, we will
follow up with each program, determine corrective action needed and provide our
management decision at that time.


Cc:      William Anderson, Chief Financial Officer
         John Gomperts, Director of AmeriCorps
         Wilsie Minor, Acting General Counsel




                                                     *
                                                                                       us~
                        1201 New York Avenue, NW    Washington, DC 20525
                              202-606-5000    *
                                              www.nationalservice.org
                                                                                       Freedom Corps
                        Senior Corps   * AmeriCorps * Learn and Serve America          The President's Call to Service
